=
|

OCKLE

2311 Douglas Street A F E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs

: Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1424

ACE AMERICAN INSURANCE COMPANY
AUTO-OWNERS INSURANCE COMPANY
TRAVELERS CASUALTY AND
SURETY COMPANY, ET AL.,
Petitioners,
v.
MSP RECOVERY CLAIMS, SERIES LLC,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICI CURIAE BRIEF OF
AMERICAN PROPERTY CASUALTY INSURANCE ASSOCIATION, DRI, INC., MEDICARE
ADVOCACY RECOVERY COALITION, NATIONAL ASSOCIATION OF MUTUAL
INSURANCE COMPANIES, AND PERSONAL INSURANCE FEDERATION OF FLORIDA IN
SUPPORT OF PETITIONERS in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5783 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of May, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska & Chk
L RENEE J. GOSS 9. ( Deda ‘

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 40923
